      Department of Homeland Security




        North Carolina’s Management of Homeland 

         Security Program Grants Awarded During 

              Fiscal Years 2008 Through 2010





OIG-13-74                                       April 2013

                       OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      APR 16 2013

MEMORANDUM FOR:              David J. Kaufman
                             Associate Administrator
                             Policy, Program Analysis and International Affairs
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     North Carolina’s Management of Homeland Security
                             Program Grants Awarded During Fiscal Years 2008
                             Through 2010

Attached for your action is our final report, North Carolina’s Management of Homeland
Security Program Grants Awarded During Fiscal Years 2008 Through 2010. We
incorporated the formal comments from the Associate Administrator for Policy,
Program Analysis and International Affairs in the final report.

The report contains eight recommendations to strengthen program management,
performance, and oversight. Your office concurred with all eight recommendations.
Based on information provided in your response to the draft report, we consider the
recommendations open and resolved. Once your office has fully implemented the
recommendations, please submit a formal closeout letter to us within 30 days so that
we may close the recommendations. The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary ............................................................................................................ 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................... 3 


           State and UASI Homeland Security Strategies Need Improvement ....................... 3 

           Recommendations .................................................................................................. 6 

           Management Comments and OIG Analysis ........................................................... 6 


           Improved Compliance with Grant Program Requirements Needed ...................... 7 

           Recommendations ................................................................................................ 12 

           Management Comments and OIG Analysis .......................................................... 12 


           Performance Measures Have Not Been Developed ............................................. 15

           Recommendation.................................................................................................. 16

           Management Comments and OIG Analysis .......................................................... 16 


Appendixes
           Appendix A:           Objectives, Scope, and Methodology ........................................... 18 

           Appendix B:           Management Comments to the Draft Report .............................. 21 

           Appendix C:           Homeland Security Grant Program ............................................... 25 

           Appendix D:           North Carolina State Emergency Response Commission –

                                 Participating State and Local Agencies ........................................ 26 

           Appendix E:           Major Contributors to This Report................................................ 27 

           Appendix F:           Report Distribution........................................................................ 28 

                   OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


Abbreviations
     CFR        Code of Federal Regulations
     DHS        Department of Homeland Security
     FEMA       Federal Emergency Management Agency
     FY         fiscal year
     GPD        Grant Programs Directorate
     HSGP       Homeland Security Grant Program
     MOA        memorandum of agreement
     NCEM       North Carolina Division of Emergency Management
     OIG        Office of Inspector General
     SHSP       State Homeland Security Program
     UASI       Urban Areas Security Initiative
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the Department of Homeland Security (DHS) Office of Inspector General
   (OIG) to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants. This report responds to the reporting
   requirement for the State of North Carolina, including the Charlotte Urban Area.

   The objectives of the audit were to determine whether the State of North Carolina
   distributed and spent State Homeland Security Program and Urban Area Security
   Initiative grant funds (1) effectively and efficiently, and (2) in compliance with applicable
   Federal laws and regulations, as well as with DHS guidelines governing the use of such
   funding. We also addressed the extent to which funds enhanced the State of North
   Carolina’s and the Charlotte Urban Area’s ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters. The State of North Carolina received grant awards of approximately
   $61 million in State Homeland Security Program and Urban Areas Security Initiative
   grant funds for fiscal years 2008 through 2010.

   In most instances, the North Carolina Division of Emergency Management administered
   its grant programs in compliance with requirements in Federal grant guidance and
   regulations and DHS guidelines. Grant funds were spent on allowable items and
   activities, and there were adequate controls over the approval of expenditures and
   reimbursement of funds.

   However, the State needs to improve and update the State and Urban Areas Security
   Initiative Homeland Security Strategies, as well as the Charlotte Urban Area’s risk
   assessment; comply with grant program requirements; and enhance its performance
   measures.

   We made eight recommendations to the Federal Emergency Management Agency
   (FEMA), the State of North Carolina, and the Charlotte Urban Area, which if
   implemented, should strengthen program management, performance, and oversight.
   FEMA concurred with all eight recommendations.




www.oig.dhs.gov                                  1                                         OIG-13-74
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   enhance the ability of State, territory, local, and tribal governments to prevent, protect,
   respond to, and recover from terrorist attacks and other disasters. FEMA administers
   the HSGP, which is an important part of the administration’s larger, coordinated effort
   to strengthen homeland security preparedness. Appendix C contains a detailed
   description of the grant programs that constitute the HSGP.

   The North Carolina Department of Crime Control and Public Safety was the State
   Administrative Agency responsible for State and Federal oversight of the HSGP. The
   North Carolina Division of Emergency Management (NCEM), a division of the State
   Administrative Agency, was the acting Administrating Agency. NCEM also develops the
   State Homeland Security Strategy (State strategy) and coordinates its day-to-day
   implementation. The Secretary of the Department of Public Safety, formerly known as
   Department of Crime Control and Public Safety, represents the State's law enforcement
   and emergency response community in the Governor's cabinet. In North Carolina, a
   program management team evaluates the Urban Areas Security Initiative (UASI)
   Homeland Security Strategy (UASI strategy) and updates it as needed.

   For fiscal years (FYs) 2008 through 2010, the State received awards totaling
   approximately $65 million in HSGP funds, including about $47 million for the State
   Homeland Security Program (SHSP) and about $14 million for the UASI. Appendix A
   contains details on the objectives, scope, and methodology for this audit.




www.oig.dhs.gov                                 2                                        OIG-13-74
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Results of Audit
   In most instances, NCEM administered its grant programs in compliance with
   requirements in Federal grant guidance, applicable regulations, and DHS guidelines. For
   example, the State developed procedures and processes to administer its grant
   programs, and it had internal controls to approve and reimburse subgrantees for
   expenditures. NCEM and the Charlotte Urban Area also developed State and UASI
   strategies that included goals and objectives aligned with the four mission areas and
   eight National Priorities established by DHS. In addition, NCEM used a comprehensive
   web-based grants management system to track, process, and report grant activity.

   However, the State needs to improve and update the State and UASI Homeland Security
   Strategies, as well as the Charlotte Urban Area’s risk assessment; comply with grant
   program requirements; and enhance its performance measures.

   FEMA and North Carolina did not provide sufficient guidance and oversight of SHSP and
   UASI grant programs. Therefore, the State’s ability to carry out the programs as
   prescribed was hindered, subgrantees had inadequate internal controls, and the State
   did not effectively measure its capabilities and emergency preparedness.

           State and UASI Homeland Security Strategies Need Improvement

           North Carolina’s State and UASI strategies for FYs 2008 through 2010 included
           goals and objectives that were aligned with DHS priorities. However, the
           objectives in the State and Charlotte Urban Area strategies did not meet all DHS
           requirements, and FEMA had not received or approved the most up-to-date
           State strategy. In addition, the Charlotte Urban Area did not update its risk
           assessment.

           State Homeland Security Strategy

           NCEM used a State strategy, which it developed in 2006 and updated in October
           2007 and which FEMA approved, as the basis for the grant program for FYs 2007
           through 2009. The goals and objectives of this State strategy aligned with DHS
           National Preparedness Guidelines, dated September 2007, including the Target
           Capabilities List, as well as Department of Homeland Security State and Urban
           Area Homeland Security Strategy Guidance on Aligning Strategies with the
           National Preparedness Goal, dated July 22, 2005. The primary focus of this State
           strategy was to prevent, protect, respond to, and recover from acts of terrorism.
           NCEM viewed it as an evolving document that it would continually update to suit


www.oig.dhs.gov                                3                                       OIG-13-74
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

           changing risks and capabilities. NCEM updated the State strategy in 2010 and
           used it to guide the program through FY 2011. The updated strategy identified
           16 priorities in the State’s capabilities, and it better aligned with the National
           Preparedness Goal and Priorities, focusing on improving training and staff
           development to enhance planning initiatives, protecting infrastructure, ensuring
           equipment availability, and performing exercises to improve response
           capabilities. According to State officials, NCEM used feedback from various
           stakeholders to develop and enhance its regional capability and capacity to
           prevent, protect, respond to, and recover from catastrophic events.

           Both State strategies met DHS requirements by addressing the four DHS mission
           areas (prevent, protect, respond, and recover) and the eight National Priorities.
           However, the strategies’ goals and objectives were not specific, measurable, or
           results-oriented.

           According to Department of Homeland Security State and Urban Area Homeland
           Security Strategy Guidance on Aligning Strategies with the National Preparedness
           Goals, objectives should be—

                  •	 Specific, detailed, particular, and focused – help to identify what is to be
                     achieved and accomplished;
                  •	 Measurable – be quantifiable, providing a standard for comparison, and
                     identifying a specific achievable result;
                  •	 Achievable – not beyond a State, region, jurisdiction, or locality;
                  •	 Results-oriented – identify a specific outcome; and
                  •	 Time-limited – have a target achievement date.

           FEMA did not provide sufficient guidance to ensure that the strategies met these
           requirements. The 2007–2009 State strategy included 13 goals and 46 objectives.
           Our analysis of this FEMA-approved strategy showed that some objectives were
           not specific, measurable, or results-oriented. Table 1 shows deficiencies in the
           State strategy’s objectives.




www.oig.dhs.gov                                    4                                   	     OIG-13-74
                                   OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

                  Table 1. Deficiencies in North Carolina’s Homeland Security Strategy’s Objectives

                         Goal                     Objective                    Deficiency

                  1. Implement              1. Develop and            The objective is not:
                  appropriate               foster interagency         • Specific
                  prophylaxis and           cooperation and            • Measurable
                  vaccination               collaboration for the      • Results-oriented
                  strategies in a           delivery of mass
                  timely manner             prophylaxis
                  upon the onset of
                  an event, with an
                  emphasis on the
                  prevention,
                  treatment, and
                  containment of the
                  disease
                  4. Develop an             3. Enhance the            The objective is not:
                  overarching               capabilities of law        • Specific
                  statewide                 enforcement                • Measurable
                  preparedness and          personnel to               • Results-oriented
                  participation             recognize indicators
                  program                   of potential terrorist
                                            planning activities
                  11. Enhance               5. Develop a 3-year       The objective is not:
                  incident                  training and exercise      • Specific
                  management                program that               • Measurable
                  preparedness              involves State,            • Results-oriented
                                            regional, and local
                                            stakeholders
                  12. Prevent and           1. Develop and            The objective is not:
                  eradicate threats to      maintain plans,            • Specific
                  food and agriculture      procedures,                • Measurable
                  safety and protect        programs, and              • Results-oriented
                  public and animal         systems
                  health
              Source: DHS OIG Analysis of the State Homeland Security Strategy (2007–2009).

           Although all States are to submit their strategies to FEMA for approval, according
           to a FEMA official, as of August 2012, the agency had not received the 2010 State
           strategy from NCEM.

           Charlotte Urban Area Security Initiative Planning

           The Charlotte Urban Area UASI strategy’s goals were not specific or results-
           oriented, and they did not include bases to measure performance. FEMA did not

www.oig.dhs.gov                                          5                                            OIG-13-74
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           provide sufficient guidance to ensure that the strategy met these requirements.
           In addition, the Charlotte Urban Area did not conduct annual risk assessments to
           ensure that it allocated resources to fund its most critical preparedness needs.
           The risk assessment is used to identify, categorize, and prioritize capability
           needs. According to the 2007 DHS National Preparedness Guidelines, a risk-
           based approach to preparedness is necessary to develop emergency operations
           plans. Although it conducted a risk assessment for FYs 2006 and 2007, the
           Charlotte Urban Area did not update its assessment during FY 2008 through
           FY 2010 to reevaluate threats, risks, and vulnerabilities. Instead, it relied on the
           State’s regional assessment to determine its investments.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #1:

           Assist NCEM and the City of Charlotte UASI to develop a Homeland Security
           Strategy that includes specific, measurable, achievable, results-oriented, and
           time-limited objectives.

           Recommendation #2:

           Require the City of Charlotte UASI to conduct risk assessments to determine
           areas of vulnerability for major disasters caused by either terrorism or natural
           events.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #1

           FEMA concurred with this recommendation. The Assistant Administrator of the
           Grant Programs Directorate (GPD) shall require NCEM and the Charlotte Urban
           Area to update their respective Homeland Security Strategies to ensure that they
           include measurable target levels of performance; objectives that are specific,
           measurable, achievable, results-oriented, and time-limited; and an appropriate
           evaluation.




www.oig.dhs.gov                                 6                                         OIG-13-74
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           OIG Analysis

           We consider FEMA’s actions responsive to the intent of recommendation 1. This
           recommendation is open and resolved pending evaluation of revised Homeland
           Security Strategies from NCEM and the Charlotte Urban Area. According to
           FEMA, corrective actions will be implemented upon completion, submission, and
           review of strategy revisions. Revisions to the strategies must be submitted to
           FEMA no later than 6 months after issuance of OIG’s final report.

           FEMA’s Response to Recommendation #2

           FEMA concurred with this recommendation. FEMA's National Preparedness
           Directorate developed processes to measure core capabilities in accordance with
           the National Preparedness Goal pursuant to Presidential Policy Directive/ PPD-8:
           National Preparedness. The Charlotte Urban Area completed the Threat and
           Hazard Identification and Risk Assessment and submitted it to FEMA. The
           assessment will be used to create a baseline and targets for FY 2013 and beyond.
           FEMA's National Preparedness Directorate also redesigned the State
           Preparedness Report to help States demonstrate and track preparedness
           improvement over time.

           OIG Analysis

           We consider FEMA’s actions responsive to the intent of recommendation 2. This
           recommendation is open and resolved pending FEMA’s evaluation of the
           Charlotte Urban Area’s Threat and Hazard Identification and Risk Assessment.

           Improved Compliance With Grant Program Requirements Needed

           NCEM’s implementation of the SHSP and UASI did not always comply with
           established guidelines and procedures. Specifically, NCEM did not always
           obligate grants in a timely manner. In addition, it did not ensure that subgrantees
           comply with inventory management requirements for grant-funded equipment,
           submit timely cost reports, and maintain award letters in grant files as required.
           These deficiencies were a result of NCEM not following established procedures,
           conflicting procedures, and in some cases, no procedures.

           Grant Obligation

           In most cases, NCEM did not obligate SHSP funds within 45 days as stipulated in
           FEMA program guidance. According to NCEM officials, the lengthy process for

www.oig.dhs.gov                                 7                                        OIG-13-74
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

           obligating funds caused the delays. Consequently, subgrantees had less time to
           spend the grant funds and react to problems they may have experienced at the
           end of the grant award period. Therefore, the State Administrative Agency
           might have had to request extensions to the grant agreement period.

           FEMA Homeland Security Grant Program Guidance requires the State
           Administrative Agency to obligate HSGP funds within 45 days of FEMA’s award
           date. This obligation includes the following requirements:

                  •	 There must be some action to establish a firm commitment on the part of
                     the awarding entity.
                  •	 The action must be unconditional (i.e., no contingencies for availability of
                     funds) on the part of the awarding entity.
                  •	 There must be documentary evidence of the commitment.
                  •	 The award terms must be communicated to the official grantee.

           NCEM established a process to distribute money to local jurisdictions using
           memorandums of agreement (MOAs). According to the Fiscal Manager,
           executed MOAs establish the State’s firm commitment and communicate the
           award terms to the subgrantees. This documentary evidence must exist before
           an account can be established for the subgrantee. However, an NCEM official
           explained that it was difficult to obtain all signatures necessary to execute
           MOAs, and thus, this part of the process can be lengthy. In addition, if there
           were personnel changes involving MOA signatures before NCEM obtained all
           signatures, the process had to be started again.

           Our review of 27 SHSP grants to subgrantees during FYs 2008 and 2009 showed
           25 instances in which NCEM did not promptly obligate grant funds to subgrantees.
           Table 2 shows grants that took the longest time to obligate in this time period.




www.oig.dhs.gov                                    8                                  	     OIG-13-74
                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                  Table 2. Longest Number of Days to Obligate Subgrantee Awards – FYs 2008–2009
                                                           State                    Number of Days
                                                                      Obligation
                    Subgrantee             MOA #         Agreement                   State Took To
                                                                        Date
                                                            Date                        Obligate
            Asheville Police Department    08-1112       8/25/2008    1/22/2010           515
            Buncombe County                08-1107       8/25/2008    11/5/2009           437
            Emergency Management
            Forsyth Emergency              08-1083       8/25/2008      5/5/2009          253
            Management Services            09-1002       8/21/2009    11/30/2009          101
                                           08-1080       8/25/2008     3/30/2009          217
            Rockingham County
                                           09-1004       8/21/2009     4/21/2010          243
            NC State Highway Patrol        09-1047       8/21/2009    12/29/2009          130
            Asheville Fire Department      09-1020       8/21/2009     2/18/2010          181
           Source: DHS OIG analysis.

           According to NCEM, the office has improved its timeliness in obligating funds to
           the subgrantees.

           Inventory Management Controls

           Subgrantees did not always ensure that there were adequate internal controls to
           safeguard equipment and comply with requirements for grant-funded property.
           Specifically, subgrantees did not maintain inventory records that included
           required information, did not always have inventory records, and did not always
           mark equipment as required.

           Inventory Records

           Not all local subgrantees maintained inventory records with required
           information. Of the 13 subgrantee sites we visited, 4 subgrantees’ inventory
           records did not contain all required information such as serial numbers,
           acquisition dates, or location of property. Consequently, local subgrantees’
           inventory records did not comply with the Code of Federal Regulations (CFR)
           44 CFR § 13.32(d), Management requirements, which includes the following
           minimum requirements for grant recipients managing grant-funded equipment:

                   Property records must be maintained that include a description of the
                   property, a serial number or other identification number, the source of
                   property, who holds title, the acquisition date, cost of the property,
                   percentage of Federal participation in the cost of the property, the


www.oig.dhs.gov                                      9                                            OIG-13-74
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

                      location, use and condition of the property, and any ultimate disposition
                      data including the date of disposal and sale price of the property.

           Table 3 shows inventory record compliance issues noted during our audit.

                       Table 3. State of North Carolina SHSP and UASI Inventory Record Compliance Issues
                   Subgrantee                  Compliance Issue                     Value of Items Tested
                                               44 CFR 13.32(d)(1)
                   Buncombe County             Inventory list did not include the         $124,288
                   Emergency Management        source of the property.
                   Greensboro                  No inventory list was provided.            $171,982
                   Greenville                  Inventory list did not include the         $66,154
                                               location of the property.
                   Rockingham County           No inventory list was provided.            $105,546
                   NC State Highway Patrol     Inventory list did not include the        $1,546,300
                                               acquisition date and the use and
                                               condition of the property.
                   Thomasville Urban Search    No inventory list was provided.            $39,187
                   and Rescue # 5
                   Charlotte Urban Area        Inventory list did not include the        $3,459,347
                                               acquisition date and the use and
                                               condition of the property.
                   Total                                                                 $5,512,804
                  Source: DHS OIG analysis.

           In addition, 3 of 13 subgrantees did not maintain inventory records, which may
           have been a result of conflicting guidance. According to the CFR, grant recipients
           must take a physical inventory of grant-funded property and reconcile the results
           with property records at least once every 2 years. However, according to the
           NCEM MOAs, subgrantees are to provide an inventory list to the NCEM
           Homeland Security Branch only upon project completion. Not having proper
           inventory records weakens NCEM’s ability to manage and account for grant-
           funded equipment, and could lead to fraud, waste, and abuse.

           Marking Equipment

           Of the 13 subgrantees reviewed, 4 from Thomasville, Greenville, Greensboro,
           and the Charlotte Urban Area did not always properly mark equipment that they
           purchased with HSGP funds. According to the FY 2008 Grant Award Agreement
           between FEMA and North Carolina and the NCEM MOAs for FY 2009 and
           FY 2010, when practicable, grantees must prominently mark any equipment
           purchased with grant funding with “Purchased with funds provided by the U.S.
           Department of Homeland Security.” Officials said that they were not aware of

www.oig.dhs.gov                                       10                                             OIG-13-74
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           this requirement in the FY 2009 and FY 2010 MOAs. In addition, Charlotte Urban
           Area officials said that they were awaiting guidance from NCEM. If subgrantees
           do not properly mark equipment, it may not be possible to identify equipment
           purchased with grant funds during required physical inventories.

           Cost Reports

           The Charlotte Urban Area did not submit an FY 2008 cost report for $2.6 million
           in expenditures incurred between April 2009 and December 2011 until April
           2012. Although subgrantees are to submit cost reports requesting
           reimbursement for expenditures as they incur costs, Charlotte incurred costs for
           more than 2 years before submitting its report. As a result, NCEM may not have
           been able to conduct a thorough review of Charlotte’s expenses over this time
           period. Further, overcharges could have gone undetected. According to NCEM
           officials, they discussed this issue with the Charlotte Urban Area, but it
           continued to hold cost reports for several months before submission.

           According to the FY 2008 Homeland Security Grant Program Guidance and
           Application Kit, FEMA will not pay funds in a lump sum, but rather will disburse
           them over time as project costs are incurred. However, for FYs 2009 and 2010,
           FEMA did not include this disbursement requirement in the grant program
           guidance.

           Grant Award Letters

           Subgrantees did not always maintain grant award letters in grant files as
           required. Some subgrantees were not aware of this requirement because not all
           MOAs included information on file documentation. Further, the NCEM
           Homeland Security Branch Grant Management Standard Operating Guide,
           updated March 2010, includes required subgrantee file documentation
           information in three places, but the grant award letter is mentioned in only one
           location. The guide should be clear and consistent throughout when mentioning
           subgrantee file documentation. The grant award letter should be mentioned in
           all three places not just one location. During site visits, four local jurisdictions
           could not provide us with the signed award letters. Two locations had MOAs
           that did not include information on the grant award letter requirement, but the
           other two MOAs included the requirement.




www.oig.dhs.gov                                 11                                        OIG-13-74
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate, require the North Carolina Division of Emergency Management to:

           Recommendation #3:

           Improve the efficiency of its process to obligate subgrantee awards within the
           required time period.

           Recommendation #4:

           Ensure that subgrantees comply with inventory requirements in the Code of
           Federal Regulations.

           Recommendation #5:

           Ensure that, where practicable, subgrantees and the Charlotte Urban Area mark
           purchases made with Department of Homeland Security funds with “Purchased
           with funds provided by the U.S. Department of Homeland Security.”

           Recommendation #6:

           Ensure that the Charlotte Urban Area submits cost reports as expenditures are
           incurred.

           We recommend that the North Carolina Division of Emergency Management:

           Recommendation #7:

           Ensure that its standard operating procedures and memorandums of agreement
           with subgrantees include clear guidance on required grant file documentation.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #3

           FEMA concurred with this recommendation. The Assistant Administrator of GPD
           shall require NCEM to assess and streamline, when possible, processes and
           procedures for obligating funds to subgrantees.


www.oig.dhs.gov                               12                                       OIG-13-74
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

           OIG Analysis

           We consider FEMA’s actions responsive to the intent of recommendation 3. This
           recommendation is open and resolved pending evaluation of the results of
           NCEM’s assessment and the steps it may take to expedite the obligation of funds
           to subgrantees. NCEM shall report the results of its assessment and these
           potential steps to FEMA no later than 90 days after issuance of OIG’s final report.

           FEMA’s Response to Recommendation #4

           FEMA concurred with this recommendation. The Assistant Administrator of GPD
           shall require NCEM to submit written policies and procedures addressing the
           requirements in 44 CFR 13.32(d) and any internal guidelines, as well as
           documentation detailing how NCEM will correct the deficiencies outlined in the
           final audit report and more effectively communicate requirements to
           subgrantees.

           OIG Analysis

           We consider FEMA’s actions responsive to the intent of recommendation 4. This
           recommendation is open and resolved pending evaluation of written policies and
           procedures addressing the requirements in 44 CFR 13.32(d) and any internal
           guidelines, as well as documentation detailing how NCEM will correct the
           deficiencies and more effectively communicate requirements to subgrantees.
           FEMA stated that within 90 days of issuance of OIG’s final report, NCEM shall
           submit to FEMA the written policies and procedures, as well as any internal
           guidelines and documentation detailing how it will correct the deficiencies.

           FEMA’s Response to Recommendation #5

           FEMA concurred with this recommendation and submitted a consolidated
           response to recommendations 5, 6, and 7. The Assistant Administrator of GPD
           shall require NCEM to update its Homeland Security Branch Management
           Standard Operating Guide to comply with all Federal and State requirements,
           including—

                  •	 Guidance outlining appropriate documentation to include in a grant file;
                  •	 Guidance regarding terms and conditions for each subaward agreement;
                  •	 Standard operating procedures for equipment use and management,
                     including the marking of equipment; and


www.oig.dhs.gov                                  13	                                     OIG-13-74
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

                  •   Reporting requirements.

           The Assistant Administrator shall also require NCEM to develop a communications
           plan for the updated standard operating guide that includes subgrantee grant
           management training or workshops.

           OIG Analysis

           We consider FEMA’s actions responsive to the intent of recommendation 5. This
           recommendation is open and resolved pending evaluation of the updated
           Homeland Security Branch Management Standard Operating Guide and its
           compliance with all Federal and State requirements, as well as a communications
           plan that includes training or workshops to be implemented. FEMA stated that
           within 90 days of issuance of OIG’s final report, FEMA will require NCEM to
           update its guide and develop a communications plan.

           FEMA’s Response to Recommendation #6

           FEMA concurred with this recommendation and submitted a consolidated
           response for recommendations 5, 6, and 7 (see above).

           OIG Analysis

           We consider FEMA’s actions responsive to the intent of recommendation 6. This
           recommendation is open and resolved pending evaluation of the updated
           Homeland Security Branch Management Standard Operating Guide and its
           compliance with all Federal and State requirements, as well as a communications
           plan that includes training or workshops to be implemented. FEMA stated that
           within 90 days of issuance of OIG’s final report, FEMA will require NCEM to
           update its guide and develop a communications plan.

           FEMA’s Response to Recommendation #7

           FEMA concurred with this recommendation and submitted a consolidated
           response for recommendations 5, 6, and 7 (see above).

           OIG Analysis

           We consider FEMA’s actions responsive to the intent of recommendation 7. This
           recommendation is open and resolved pending evaluation of the updated


www.oig.dhs.gov                                 14                                   OIG-13-74
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

           Homeland Security Branch Management Standard Operating Guide and its
           compliance with all Federal and State requirements, as well as a communications
           plan that includes training or workshops to be implemented. FEMA stated that
           within 90 days of issuance of OIG’s final report, FEMA will require NCEM to
           update its guide and develop a communications plan.

           Performance Measures Have Not Been Developed

           The State of North Carolina did not develop performance measures to evaluate
           its ability to respond to an emergency caused by a natural disaster or terrorism,
           and it could not demonstrate specific improvements and measurable
           accomplishments of SHSP- and UASI-funded projects for FYs 2008 through 2010.

           According to the Department of Homeland Security State and Urban Area
           Homeland Security Strategy Guidance on Aligning Strategies with the National
           Preparedness Goal, “an objective sets a tangible and measurable target level of
           performance over time against which an actual achievement can be compared,
           including a goal expressed as a quantitative standard, value, or rate.” However,
           the goals and objectives in NCEM’s State strategy did not include bases for
           measuring improvements in its preparedness and response capabilities.

           According to the State, it measured its performance through—

                  •	 Surveys of the progress in accomplishing implemented objectives;
                  •	 Biannual Strategy Implementation Reports on the status of grant-funded
                     projects; and
                  •	 The annual State Preparedness Report, which assessed project completion.

           NCEM asserted that it measured its progress toward achieving its goals and
           objectives through Biannual Strategy Implementation Reports and State
           Preparedness Reports. Although the information in the State Preparedness
           Reports was linked with the State strategy’s goals and objectives, we could not
           verify how the State obtained the information in these reports. Further, these
           surveys and reports included information on the financial status and completion
           of projects, but did not measure whether the State had met its strategic goals
           and objectives and improved its disaster preparedness and response.
           In addition, the Charlotte Urban Area did not have a process to track and
           measure improvements in preparedness. Officials said that, as needed, they
           conducted informal self-assessments comparing their capabilities with the
           capabilities in the FEMA National Incident Management System. The National


www.oig.dhs.gov                                  15	                                    OIG-13-74
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           Incident Management System provides a framework for all jurisdictions to work
           together to manage domestic incidents, and States and urban areas are asked to
           show how their strategic goals and objectives support implementation of this
           system. Although Charlotte Urban Area officials said that they conducted self-
           assessments to evaluate progress, they did not document these efforts.
           Without the ability to measure progress toward meeting goals and objectives, as
           well as a system to collect objective, results-oriented data, NCEM and the
           Charlotte Urban Area did not have a basis to determine how their grant
           expenditures enhanced preparedness and response capabilities. According to
           NCEM and the Charlotte Urban Area, they did not receive guidance from FEMA
           on how to measure these improvements.

           Recommendation

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate, require the North Carolina Division of Emergency Management and
           the Charlotte Urban Area to:

           Recommendation #8:

           Establish performance measures to determine whether goals and objectives in
           their respective strategies have been met and whether they have improved their
           capabilities in disaster response and preparedness.

           Management Comments and OIG Analysis

           FEMA’s Response to Recommendation #8

           FEMA concurred with this recommendation. FEMA's National Preparedness
           Directorate developed processes to measure core capabilities in accordance with
           the National Preparedness Goal pursuant to Presidential Policy Directive/ PPD-8:
           National Preparedness. The State completed the Threat and Hazard Identification
           and Risk Assessment and submitted it to FEMA. The assessment will be used to
           create a baseline and targets for FY 2013 and beyond. FEMA's National
           Preparedness Directorate also redesigned the State Preparedness Report to help
           States demonstrate and track preparedness improvement over time.




www.oig.dhs.gov                               16                                      OIG-13-74
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

           OIG Analysis

           We consider FEMA’s actions responsive to the intent of recommendation 8. This
           recommendation is open and resolved pending evaluation of the State's
           compliance with these requirements.




www.oig.dhs.gov                              17                                    OIG-13-74
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The audit objective was to determine whether the State of North Carolina distributed
   and spent SHSP and UASI grant funds effectively and efficiently and in compliance with
   laws, regulations, and guidance. In addition, the audit goal was to determine the extent
   to which the State measured improvements in its ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade disasters.

   The HSGP and its five interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment, training, exercises, and
   management and administration. We reviewed only SHSP and UASI funding of
   equipment and programs for compliance. Appendix C contains additional information
   on these grant programs.

   The scope of the audit included the following:

                     North Carolina Homeland Security Grant Program Awards
                                     FYs 2008 Through 2010
                Program          FY 2008      FY 2009      FY 2010        Total
         State Homeland
                               $16,280,000 $15,739,000 $15,419,662     $47,438,662
         Security Program
         Urban Areas
                                $4,821,000   $4,580,000   $4,583,712   $13,984,712
         Security Initiative
                  Subtotal     $21,101,000 $20,319,000 $20,003,374     $61,423,374
         Source: GPD, FEMA.

   The audit methodology included interviews with FEMA and State Administrative Agency
   representatives, the urban area that received grants, and various subgrantee locations.
   To achieve our audit objective, we analyzed data, reviewed documentation, and
   interviewed the key local officials directly involved in the management and
   administration of North Carolina’s HSGP. We conducted site visits and held discussions
   with appropriate officials from selected State agencies, the Charlotte Urban Area, and



www.oig.dhs.gov                                   18                                    OIG-13-74
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   local jurisdictions to determine if program grant funds were expended in accordance
   with grant requirements and NCEM-established priorities.

   In addition to NCEM, we met with officials from the following organizations:

   Urban Areas Security Initiative
      • Charlotte Urban Area

   State Agencies
       • State Bureau of Investigation
       • State Highway Patrol

   Counties/City
      • Buncombe County Emergency Services
      • Rockingham County Emergency Management

   Local Jurisdictions and First Responders
      • Regional Response Team-5, City of Greensboro Fire Department
      • Forsyth Emergency Medical Services
      • Thomasville Urban Search and Rescue Team #5
      • Regional Response Team-6, City of Asheville Fire Department
      • City of Asheville Police Department
      • New Bern Police Department
      • Pitt Memorial Hospital Foundation (currently Vidant Medical Center)
      • City of Greenville Urban Search and Rescue Team #10

   We interviewed responsible officials, reviewed documentation supporting NCEM and
   subgrantee management of the awarded grant funds (including expenditures for
   equipment, training, and exercises), and physically inspected judgmentally selected
   equipment procured with the grant funds.

   We reviewed a judgmental sample of the grant obligations representing approximately
   58 percent of the grant agreements for FYs 2008 through 2010 to determine whether
   the expenditures were supported and allowable under the grants. We judgmentally
   chose specific equipment items to observe at the local sites where they reside.

   We conducted this performance audit between April and September 2012, pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our


www.oig.dhs.gov                               19                                     OIG-13-74
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              20                                     OIG-13-74
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                              I I.S.   n ~I'''rTm'·. 1   orllom el,,,,,' S.",,,,. jr,·
                                                                                              Wll5hiogton. DC            20~72




                                                                                             FEMA

              MEMORANDUM FOR:                  Anne L. Ric hards
                                               Assistant Inspector Gene ral fo r A udits
                                               Office of Inspector General

                                               David J. Kaufman            ~ I~ )
                                               Assoc iate Adm ini strator fOI"\ ~
                                               Po licy. Program Analysis and Intemat ional Affai rs

              SU BJ ECT,                       FEMA Response to OIG Draft Report: "Nor(17 Carolina 's (IlC)
                                               !'v/(magemelll (if Home/and SeclIr;IY Progl'{1IJ1 Grams Awarded
                                               During Fiscal Years 1008 Through lOlO·' - For Official Usc Only
                                               - 0 10 Project No. 12-113-AUD-FEMA


              Thnnk yo u fo r the opportun ity to commen t on O IG Draft Report: ","'101'117 Carolina IS (NC)
              Managemenr of HOllie/and Security Program Grams Aw{wded During Fi.~cal rears 2{)08
              Tfll"ollgh 2010" - Fa /" OjJicial U.~e Only - 0 10 Project No. 12-1 IS-AUD-FEMA. T he find ings
              in the: report wi ll be uSl:d to l:llham::t: tht:: program 's U\'cmll crrectiveness. The fo ll owing are our
              responses to the recommendations lor imp lementation :

              OIG Recommendation 1: We recommend the Assistant Administrator, Grant Programs
              Directo rate, assist the NC Oivisioll of Ellll:rgem:y Management (NCEM) and the C harlotte
              Urban Area to develop a Homeland Security Strategy that includes spec ifi c, measurable,
              ach ievable, results-oriented, and time-lim ited obj ectives.

              F"EMA Response: C oncur. The Assistant Administrator of the Grant Programs Directorate
              (GPO) shall req uire the NC Division of Emergc ncy Managemcnt (NCEM) and the Charlotte
              lJrhan Area to update the ir respecti ve Homeland Secu rit y S trategies, ensuring the s trategies
              include measurable target le\'c1s o f perfomlancc, as well as obj ectives that arc speci fi c.
              measurab le, ac hievable, resuhs.-ori ented, and time- limited, and an appropriate evaluation.
              NCEM and the Charlotte Urban Area s hall subm it the rcviscd Homeland Sccurity Strategies to
              GPO ror review no later than six months after issuance nfthe O IG fina l report .

              FEMA rt::4uesLs this reeum mcmlation be resolved and open pending the completion, submiss ion,
              and review of the s trategy rev is ions.

              OIG Reeo mm enduti on 2 : We recom mend the Assistant Administrator, Grant Programs
              Directorate require th e C harlotte Urban Arca to cOllduct risk assessments to llt;:lenninl: an.::as of
              vulnerability fo r major di sasters caused by either terrori sm or nalural events.



                                                                                             ww ..·. fcm •. l:lJy




www.oig.dhs.gov                                                    21                                                                                    OIG-13-74
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              FEMA Response: Concur. FEMA's National Preparedness Directorate (NPD) developed
              processes to measure core capabilities in accordance with the National Preparedness Goal
              pursuant to Presidential Policy Directive 8 (PPO-8). The Charlotte Urban Area completed the
              Threat and Hazard Identification and Risk Assessment (THIRA) and submitted it to FEMA. The
              THlRA will be used to create a baseline and targets for Fiscal Year 2013 and beyond. FEMA
              NPD also redesigned the 'State Preparedness Report (SPR) that will help states demonstrate and
              track preparedness improvement over time. Given the State's compliance with these
              requirements, we believe their actions satisfied the intent of the recommendation. See
              attachmen1 "A" North Carolina's SPR.

              FEMA requests that the recommendation be resolved and closed.

              DIG Recommendation 3: We recommend the Assistant Administrator. Grant Programs
              Directorate require the NC Division of Emergency Management to improve the efficiency of its
              processes to obligate subgrantee awards within the required time period.

              FEMA Response: Concur. The Assistant Administrator of the Grant Programs Directorate
              shall require NCEM to assess and streamline (where possible) processes and procedures for
              obligating funds to subgrantees. NCEM shaH report to GPD the results of this assessment and
              potential steps to be taken to expedite the obligation of funds 10 the subgrantees no later than 90
              days after the issuance of the 010 final report.

              FEMA requests this recommendation be resolved and open pending the completion of the
              corrective action.

              OIG Re(!ommendation 4: We recommend the Assistant Administrator, Grant Programs
              Directorate require the NC Division of Emergency Management to ensure that subgrantees
              comply with inventory requirements in the Code of Federal Regulations.

              FEMA Response: Concur. Within 90 days of issuance of the final report, the Assistant
              Administrator of the Grant Programs Directorate shall require NCEM to submit written policies
              and procedures addressing the requirement provisions of 44 CFR 13.32(d) as well as any internal
              guidelines along with documentation detailing how NCEM will correct the deficiencies outlined
              in the final audit report and communicate requirements with subgrantees more effectively.

              FEMA requests this recommendation be considered resolved and open pending the corrective
              actions stated above.

              OIG Recommendation 5: We recommend the Assistant Administrator, Grant Programs
              Directorate require the NC Division of Emergency Management to ensure that, where
              practicable, subgrantees and the Charlotte Urban Area mark purchases made with DHS funds
              "Purchased with funds provided by the US Department of Homeland Security".

              FEMA Response: Concur. (See consolidated response/or recommendation 5, 6, and 7 be/ow)




                                                               2




www.oig.dhs.gov                                               22                                                    OIG-13-74
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommend2tion 6: We recommend the Assistant Administrator, Grant Programs
              Directorate require the NC Division of Emergency Management l:o ensure that the Charlone
              Urban Area submits cost reports as expenditures are incurred.

              FEMA Response: Concur. (See consolidated response/or recommendation 5, 6, and 7 below)

              OIG Recommcndati.on 7: We recommend the Assistant Administrator, Grant Programs
              Directorate require the NC Division of Emergency Management to ensure that its standard
              operating procedures and memorandums of agreement with subgrantees include clear guidance
              on required grant file docwnentation.

              FEMA Response to Recommendations 5, 6, and 7: Concur. Within 90 days of issuance of the
              final report, the AssislarJt Administnttor of the Gnml Programs Directorate shall require NCEM
              to update its Homeland Security Branch Management Standard Operating Guide to be compliant
              with all Federal and State requirements to include, but not limited 10:

                  a) Guidance outlining the appropriate documentation to include in a grant file
                  b) Guidance regarding terms and conditions for each subaward agreement
                  c) Standard operating procedures for the use and management of equipment, including the
                     marking of equipment
                  d) Reporting requirements

              The Assistant Administrator shall also require NCEM to develop a communications plan for the
              revised Standard Operating Guide, to include subgrantcc grant management trainings or
              workshops..

              FEMA requests this recommendation be considered resolved and open pending the corrective
              actions stated above.

              OIG Recommendation 8: Require the NC Division of Emergency Management and the
              Charlotte Urban Area to establish perfonnance measures to determine whether goals and
              objectives in their respective strategies have been met and whether they have improved their
              capabilities in disaster response and preparedness. See attachment ""A" North Carolina' s SPR.

              FEMA Response: Concur. The FEMA NPD developed processes to measure core capabilities
              in accordance ""i.th the National Preparedness Goal pursuant to PPD-8, The State completed the
              THlRA and submitted it to FEMA. The THIRA will be used to create a baseline and targets for
              Fiscal Year 2013 and beyond. FEMA NPD also redesigned the SPR that will help states
              demonstrate and track preparedness improvement over time. Given the State's compliance with
              these requirements, we believe their actions satisfied the intent of the recommendation. See
              attaclunent "'A"North Carolina's SPR.

              FEMA requests that the recommendation be resolved and closed.




                                                             J




www.oig.dhs.gov                                              23                                                OIG-13-74
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              Again, we thank you for the work that you and your team did to infonn us of measures we can
              take to enhance the program's overall effectiveness. We look forward to OIG's final report for
              "North Carolina's (NC) Management of Homeland Security Program Grants Awarded During
              Fiscal Years 2008 Through 2010" -For Official Use Only - OIG Project No. 12-IlS-AUD-
              FEMA. Please direct any questions regarding this response to Gary McKeon, FEMA' 5 Chief
              Audit Liaison, at 202-646-1308.




                                                            4




www.oig.dhs.gov                                             24                                                 OIG-13-74
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Homeland Security Grant Program
   The Homeland Security Grant Program provides Federal funding to help State and local
   agencies enhance their capabilities to prevent, deter, respond to, and recover from
   terrorist attacks, major disasters, and other emergencies. The Homeland Security Grant
   Program encompasses several interrelated Federal grant programs that together fund a
   range of preparedness activities, including planning, organization, equipment purchase,
   training, and exercises, as well as management and administration costs. Programs
   include the following:

   State Homeland Security Program provides financial assistance directly to each of the
   States and territories to prevent, respond to, and recover from acts of terrorism and
   other catastrophic events. The program supports the implementation of the State
   Homeland Security Strategy to address the identified planning, equipment, training, and
   exercise needs.

   Urban Areas Security Initiative provides financial assistance to address the unique
   planning, equipment, training, and exercise needs of high-risk urban areas, and to assist
   in building an enhanced and sustainable capacity to prevent, respond to, and recover
   from threats or acts of terrorism and other disasters. Allowable costs for the urban
   areas are consistent with the State Homeland Security Program. Funding is expended
   based on the Urban Area Homeland Security Strategies.

   In addition, the Homeland Security Grant Program includes other interrelated grant
   programs with similar purposes. Depending on the fiscal year, these include the
   following:

       •   Metropolitan Medical Response System
       •   Citizen Corps Program
       •   Operation Stonegarden




www.oig.dhs.gov                               25                                        OIG-13-74
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   North Carolina State Emergency Response Commission—
   Participating State and Local Agencies
   The North Carolina State Administrative Agency is the Department of Crime Control and
   Public Safety. The NCEM component of the Department of Crime Control and Public
   Safety handles day-to-day implementation of DHS grants. The State Emergency
   Response Commission (Commission), chaired by the Homeland Security Advisor,
   oversees homeland security programs in the State and the creation and implementation
   of the State Homeland Security Strategy. The Commission holds quarterly meetings, at
   which the following North Carolina agencies are represented: Division of Crime Control
   and Public Safety, Department of Health and Human Services, Department of
   Environment and Natural Resources, Department of Agriculture and Consumer Services,
   Department of Transportation, Department of Justice, State Fire Marshal's Office, Office
   of Info Tech Services, and the School of Public Health at the University of North Carolina
   system. The Commission monitors progress toward meeting the goals and objectives
   and reviews all grant-funded projects and contracts.

   North Carolina comprises 101 jurisdictions, which includes one group of the Eastern
   Band of Cherokee Indians. There are three branches for emergency response functions,
   and 15 area coordinators work closely with their assigned counties to promote
   continuity. Additionally, the State has 9 Regional Response Teams and 11 Urban Search
   and Rescue teams. The following State and local agencies participate:

   Core Members:                             Support Members:
      � Public Health                           � Division of Social Services
      � Municipal Police                        � Agriculture Extension Agent
      � Sheriff’s Department                    � Mental Health
      � Municipal Fire Department               � Nongovernmental Organizations
      � Rural Fire Department                      and Volunteer Organizations
      � Emergency Medical Services              � Interoperable Communications
      � Hospitals                               � Community Colleges
      � Emergency Management
      � Rescue
      � Public Works




www.oig.dhs.gov                               26                                        OIG-13-74
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Alexander Best, Director
   Inez Jordan, Audit Manager
   Jose Benitez-Rexach, Auditor-In-Charge
   Pamela Brown, Auditor
   Scott Crissey, Program Analyst
   Juan Santana, Auditor
   Roger Thoet, Auditor
   Ignacio Yanes, Program Analyst
   Kelly Herberger, Communications Analyst
   Katrina Bynes, Referencer




www.oig.dhs.gov                              27                 OIG-13-74
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grants Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 28                         OIG-13-74
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
